.>

Is

.COCKLE

2311 Douglas Street
Omaha. Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.
ANTHONY FUTIA, JR. and ROBERT L. SCHULZ,
Petitioners,
v.
STATE OF NEW YORK; ANDREW CUOMO, individually
and in his official capacity as Governor of the State of New
York; JOHN J. FLANAGAN, individually and in his former
capacity as Majority Leader of the New York State Senate;
ANDREA STEWART-COUSINS, individually and in her
former capacity as Minority Leader of the New York State
Senate; CARL E. HEASTIE, individually and in his official
capacity as Speaker of the New York State Assembly;
THOMAS P. DINAPOLI, in his official capacity as
Comptroller of New York State; and BRIAN M. KOLB,
individually and in his official capacity as
Minority Leader of the New York State Assembly,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5705 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of February, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

I
1
1

A GENERAL HQTAHY-State of Hs&rasto
il

RENEE J. GOSS
fgy Comm. Exp. Septembers* £023

kMMn ---------

Notary Public

v

Affiant

40581

